<html>
<title> - BUILT IN AMERICA: JOBS AND GROWTH IN THE MANUFACTURING SECTOR</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


      BUILT IN AMERICA: JOBS AND GROWTH IN THE MANUFACTURING SECTOR

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON DIGITAL COMMERCE AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2018

                               __________

                           Serial No. 115-167
                           
                           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
 Printed for the use of the Committee on Energy and Commerce
 
                        energycommerce.house.gov
                          
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-617                       WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f4849bb4978187809c919884da979b99da">[email&#160;protected]</a>                                   

                     
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

        Subcommittee on Digital Commerce and Consumer Protection

                         ROBERT E. LATTA, Ohio
                                 Chairman
GREGG HARPER, Mississippi            JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BEN RAY LUJAN, New Mexico
MICHAEL C. BURGESS, Texas            YVETTE D. CLARKE, New York
LEONARD LANCE, New Jersey            TONY CARDENAS, California
BRETT GUTHRIE, Kentucky              DEBBIE DINGELL, Michigan
DAVID B. McKINLEY, West Virgina      DORIS O. MATSUI, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            JOSEPH P. KENNEDY, III, 
LARRY BUCSHON, Indiana                   Massachusetts
MARKWAYNE MULLIN, Oklahoma           GENE GREEN, Texas
MIMI WALTERS, California             FRANK PALLONE, Jr., New Jersey (ex 
RYAN A. COSTELLO, Pennsylvania           officio)
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     1
    Prepared statement...........................................     3
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     7
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, prepared statement..........................     8

                               Witnesses

Nikki Moyers, Vice President, Operations, Jerl Machine, Inc......    10
    Prepared statement...........................................    12
Edward Paradowski, President, Apache Stainless Equipment 
  Corporation....................................................    18
    Prepared statement...........................................    20
Andrew Stettner, Senior Fellow, Century Foundation...............    26
    Prepared statement...........................................    28
Eric Anderberg, Vice President, Dial Machine, Inc................    35
    Prepared statement...........................................    37

                           Submitted material

Blog entitled, ``How do we know the tax cut isn't working to 
  boost wages? Investment, investment, investment,'' Economic 
  Policy Institute, August 3, 2018...............................    73
Report entitled, ``A Federal Agenda for Revitalizing America's 
  Manufacturing Communities,'' Andrew Stettner and Joel S. Yudken    78

 
     BUILT IN AMERICA: JOBS AND GROWTH IN THE MANUFACTURING SECTOR

                              ----------                              


                     WEDNESDAY, SEPTEMBER 26, 2018

                  House of Representatives,
     Subcommittee on Digital Commerce and Consumer 
                                        Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123 Rayburn House Office Building, Hon. Robert Latta 
(chairman of the subcommittee) presiding.
    Members present: Representatives Latta, Kinzinger, Burgess, 
Lance, Guthrie, McKinley, Bilirakis, Bucshon, Mullin, Costello, 
Duncan, Walden (ex officio), Schakowsky, Cardenas, Welch, 
Kennedy, Green, and Pallone (ex officio).
    Staff present: Melissa Froelich, Chief Counsel, Digital 
Commerce and Consumer Protection; Ali Fulling, Legislative 
Clerk, Oversight and Investigations, Digital Commerce and 
Consumer Protection; Elena Hernandez, Press Secretary; Paul 
Jackson, Professional Staff, Digital Commerce and Consumer 
Protection; Bijan Koohmaraie, Counsel, Digital Commerce and 
Consumer Protection; Tim Kurth, Senior Professional Staff, 
Communications and Technology; Austin Stonebraker, Press 
Assistant; Madeline Vey, Policy Coordinator, Digital Commerce 
and Consumer Protection; Greg Zerzan, Counsel, Digital Commerce 
and Consumer Protection; Michelle Ash, Minority Chief Counsel, 
Digital Commerce and Consumer Protection; Lisa Goldman, 
Minority Counsel; Tiffany Guarascio, Minority Deputy Staff 
Director and Chief Health Advisor; Carolyn Hann, Minority FTC 
Detailee; Caroline Paris-Behr, Minority Policy Analyst; Andrew 
Souvall, Minority Director of Communications, Outreach and 
Member Services; and C.J. Young, Minority Press Secretary.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta [presiding]. Good morning. I would like to call 
the Subcommittee on Digital Commerce and Consumer Protection to 
order this morning.
    At this time I recognize myself for 5 minutes for an 
opening statement.
    Good morning again. I would like to welcome everyone to 
today's Digital Commerce and Consumer Protection Subcommittee 
examination of the state of manufacturing in America.
    Thanks to policies designed to spur manufacturing in our 
country, we are seeing a revival of the Made in America brand. 
Factories are expanding, workers are being hired and rehired, 
and wages are rising. A recent survey of small business owners 
found optimism at an all-time high.
    Small businesses are responsible for creating two out of 
three new jobs. So, when they are raising wages, growing their 
businesses, and investing in equipment, it is helpful to the 
entire economy.
    In my own congressional district, the 5th District of Ohio, 
we are definitely seeing a resurgence of optimism. My district 
stretches from densely populated urban centers like downtown 
Toledo to small villages on the state line of Indiana, and we 
probably have over 60,000 manufacturing jobs. In the over 900-
plus district meetings I have had since August of 2012, 
overregulation is one of the most mentioned issues. I never 
hear that regulation isn't necessary, but I always hear people 
ask for regulations they can live with and comply with. It is 
burdensome for businesses to navigate regulatory regimes when 
they are busy improving operations and products for customers 
or working to grow to reach more people.
    Through policies this Congress and the administration 
advanced, we are witnessing the rebirth of a healthy, strong, 
and growing manufacturing sector. This includes one of our 
witnesses today who comes to us representing Jerl Machine, 
Inc., from Perrysburg. Welcome.
    And again, we thank you all for being with us today. I look 
forward to the hearing and hearing from you all.
    According to the Congressional Research Service, the U.S. 
is the world's second largest manufacturing nation, having been 
overtaken by China in 2010. But the competition to regain the 
crown is very much alive. In recent years, American 
manufacturing output has risen steadily, this year reaching its 
highest level in nearly 10 years.
    Growing production also means growing jobs. Since 2017, 
over 350,000 manufacturing jobs have been created in America. 
This is a sharp reversal over the previous 2 years when the 
Bureau of Labor Statistics was regularly reporting job losses.
    The increasing demand for workers is creating new 
opportunities across our country. Importantly, for the first 
time in a long time, prosperity and opportunity are reaching 
into rural areas that have long been left out of the recovery. 
As a recent report by Brookings Institute notes, the growth of 
the employment rate in small and rural communities has outpaced 
that of large cities and other larger metropolitan areas. A 
large part of the success is due to the return of manufacturing 
jobs.
    Restoring America's manufacturing sector has been a 
priority of this Congress. Tax reform focused on lowering the 
burdens for employers which they face in order to spur 
production and job creation has helped fuel the manufacturing 
boom. Perhaps that is why the National Association of 
Manufacturers' Outlook Survey reports an all-time high in 
manufacturer optimism for the second quarter of this year. They 
also reported record or near-record highs when it came to their 
expectations about hiring workers, raising wages, and making 
investments. Our manufacturers know that opportunity is greater 
now than it has been in many years.
    Again, I look forward to hearing more about these trends 
from our witnesses, as well as any ideas you have for how 
policymakers can help remove barriers and further promote 
manufacturing in America. We are grateful for the time that you 
are here with us today, and we appreciate your testimony.
    At this time, I would like to recognize the vice chairman 
of the subcommittee, the gentleman from Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman, for yielding.
    And I thank all of you for being here today. I especially 
want to welcome Mr. Anderberg. He is my constituent. He is the 
vice president and co-owner of Dial Machine, which is a great 
American manufacturing company located in Rockford, Illinois. 
Mr. Anderberg helps run this family-owned business that has 
been around for more than a half a century. He has a wealth of 
experience in the industry and is a student of the history of 
manufacturing and trade. It is not his first rodeo, either. He 
was here back in 2003 in front of the Small Business Committee 
talking about the state of manufacturing then.
    Mr. Anderberg, thank you for making the trip to Washington 
to give us all your unique perspective on the manufacturing 
sector. It is definitely an honor to represent you in Congress.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Good morning, I'd like to welcome everyone to the Digital 
Commerce and Consumer Protection Subcommittee's examination of 
the State of Manufacturing in America.
    Thanks to policies designed to spur manufacturing in our 
country we are seeing a revival of the Made in America brand. 
Factories are expanding, workers are being re-hired and wages 
are rising. A recent survey of small business owners found 
optimism at an all-time high. Small businesses are responsible 
for creating 2 out of every 3 new jobs so when they are raising 
wages, growing their businesses, and investing in equipment, 
it's helpful to the entire economy \1\.
---------------------------------------------------------------------------
    \1\ https://www.cnbc.com/2018/09/11/small-business-optimism-surges-
to-highest-ever.html
---------------------------------------------------------------------------
    In my own congressional district, the 5th District of Ohio, 
we are definitely seeing a resurgence of optimism. My district 
stretches from densely populated urban centers like downtown 
Toledo to small villages on the state-line of Indiana and we 
proudly have over 60,000 manufacturing jobs. In the over 900 
district meetings I've had since August 2012, overregulation is 
the most mentioned issue. I never hear that regulation isn't 
necessary, but I always hear people ask for soft- touch, 
minimal regulation. It is burdensome for businesses to navigate 
regulatory regimes when they are busy improving operations and 
products for customers or working to grow to reach more people. 
Through policies this Congress and Administration have 
advanced, we are witnessing the rebirth of a healthy, strong 
and growing manufacturing sector. This includes one of our 
witnesses today, who comes to us representing Jerl Marchine 
Inc. from Perrysburg. Welcome Ms. Moyers, and thank you very 
much for joining us today, I look forward to hearing from you 
and our other witnesses today.
    According to the Congressional Research Service, the U.S. 
is the world's second-largest manufacturing nation, having been 
over-taken by China in 2010. But the competition to regain the 
crown is very much alive. In recent years American 
manufacturing output has risen steadily, this year reaching its 
highest level in nearly 10 years.
    Growing production also means growing jobs. Since January 
2017, over 350,000 manufacturing jobs have been created in 
America; this is a sharp reversal over the previous two years, 
when the Bureau of Labor Statistics was regularly reporting job 
losses.
    The increasing demand for workers is creating new 
opportunities across our country. Importantly, for the first 
time in a long time prosperity and opportunity are reaching 
into rural areas that have long been left-out of recovery.
    As a recent report by the Brookings Institute notes, the 
growth of the employment rate in small and rural communities 
has outpaced that of big cities and other larger metro areas. A 
large part of this success is due to the return of 
manufacturing jobs.
    Restoring America's manufacturing sector has been a 
priority of this Congress. Tax reform, focused on lowering the 
burdens employers face in order to spur production and job 
creation, has helped fuel the manufacturing boom.
    Perhaps that's why the National Association of 
Manufacturer's Outlook Survey reported an all-time high in 
manufacturer optimism for the second quarter of this year. They 
also reported record or near record highs when it came to their 
expectations about hiring workers, raising wages and making 
investments.
    Our manufacturers know that opportunity is greater now than 
it has been in many years.
    I look forward to hearing more about these trends from our 
witnesses, as well as any ideas you have for how policymakers 
can remove barriers and further promote manufacturing in 
America. We are grateful for your time today and appreciate 
your testimony.

    Mr. Latta. Thank you very much. The gentleman yields back.
    And I will yield back the balance of my time, and at this 
time I will recognize the gentleman from New Jersey for an 
opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    A strong manufacturing sector is vital to our identity as a 
nation, is the source of countless scientific and technological 
breakthroughs, and it is essential to maintaining our national 
defense capabilities. Manufacturing serves as an important 
building block for a strong and stable middle class in this 
country. Manufacturing jobs have historically paid more on 
average than jobs in other sectors, and they tend to bring with 
them strong spillover effects for local and regional economies.
    In my home State of New Jersey, we have nearly 10,000 
manufacturers from large pharmaceutical firms to small machine 
shops, and these manufacturers employ almost 250,000 people and 
contribute more than $30.1 billion to New Jersey's economy.
    And I am pleased we are holding a hearing on the state of 
U.S. manufacturing. Our communities are stronger when we can 
develop well-paying and stable jobs. But the Republican 
majority for two years now has repeatedly prioritized the needs 
of large corporate interests and the wealthiest few. The 
American people have not been fooled by Republicans' claims 
about their giant tax scam. The American people know that the 
benefits of the tax law overwhelmingly go to the wealthiest 
few. And congressional Republicans also continue to push 
harmful regulatory rollbacks that undermine innovation and job 
growth.
    Despite all the evidence to the contrary, Republicans are 
likely to tout the successes of their tax scam today. Yet, 
repeatedly, we have seen that most companies have not and do 
not intend to use the money for capital investment. In fact, we 
remember all too well watching President Trump's former lead 
economic advisor Gary Cohn's distress when a group of CEOs were 
asked if they intended to increase their investments when the 
tax cuts become law, and almost none of them raised their 
hands. Gary Cohn sent shockwaves asking, and I quote, ``Why 
aren't the other hands up?'' Their hands did not go up because 
they intended for most profits from the tax cuts to go to 
shareholders, and that is exactly what has happened.
    Contrary to the majority's claims, deregulation has also 
caused substantial uncertainty and angst for manufacturers. For 
example, eight years ago the CAFE standards were put into place 
to increase fuel economy for cars and light-duty trucks by 
model year 2025. U.S. manufacturers and their suppliers 
innovated and invested in advanced technologies. CAFE provided 
certainty to these firms, allowing them to invest in a pipeline 
of jobs for the long term. And all of that investment and 
innovation was upended in August when the Trump administration 
announced a proposal to roll back CAFE. This announcement threw 
into disarray well-laid plans for innovation and job growth.
    The Trump administration's efforts to dismantle the Clean 
Power Act have also created even more uncertainty for the 
manufacturing sector. And this administration's efforts to 
abuse emergency authorities to subsidize the coal and nuclear 
industries threaten to hurt national gas-fired electricity 
producers and the renewables industry while raising costs for 
U.S. manufacturers at the same time.
    So, what American manufacturers need is for the federal 
government to prepare and implement a coordinated long-term 
strategy for manufacturing success and job growth. Our key 
competitors have figured this out already. Since 2015, the 
Chinese government has invested billions of dollars into the 
Made in China 2025 campaign, which is their 10-year plan for 
transforming their economy from commodities to advanced 
manufacturing.
    And the Obama administration recognized this need and 
established the National Network for Manufacturing Innovation, 
now known as Manufacturing USA. This is a network of industry, 
academic, and government partners working to increase U.S. 
manufacturing competitiveness and spur innovation. To date, 
this network has 14 institutes specializing in a variety of 
advanced manufacturing sectors such as advanced robotics and 
lightweight metals. The plan was to open three times as many 
institutes, and I encourage the current administration to 
follow through with this initiative.
    It's time to stop making manufacturing policy on a whim 
and, instead, to think strategically about the future needs of 
this country. Mr. Chairman, American manufacturing also needs 
companies to step up and invest, and not just in their plants, 
but in their workers as well. Too often, good manufacturing 
jobs become part-time jobs without benefits, and workers are 
increasing losing their power to negotiate for better 
conditions and higher wages. So, the federal government needs 
the industry to be a partner in creating a vibrant 
manufacturing economy. And I hope this hearing can explore that 
partnership.
    So, I yield back. Thank you, Mr. Chairman.
    Mr. Latta. Thank you very much. The gentleman yields back.
    And the Chair now will recognize the chairman of the full 
Committee of Energy and Commerce, the gentleman from Oregon, 
for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman. I appreciate 
your leadership on this issue and the hearing that we are 
having today.
    As our witnesses will know, we have got a couple of these 
going on today. So, some of us will have to bounce back and 
forth.
    I would just say at the beginning, I am glad to stack the 
Trump economy up against the Obama economy any day of the week. 
We actually have provided, as a result of Republican 
majorities, the biggest tax relief since Ronald Reagan. We have 
had significant regulatory relief, taking the dead hand of 
overexcessive government regulation off the throats of 
America's entrepreneurs, and they have responded at record pace 
to create jobs in America, and to give us the best economy 
nearly anybody in the working world has seen in their time. And 
so, optimism is up. Jobs are up. There are more openings than 
there are people to fill them, and we are moving forward with a 
robust economy.
    And this notion from the last President that we should get 
used to a 1.5 or 2 percent GDP, and that is the new normal, the 
best America could do, is just garbage. And so, we are seeing 
it move forward at 4.2 percent GDP growth, and a very, very 
strong economy, and it is because of the Republican policies we 
have passed out of this committee and others, and down to the 
President for signature.
    But today we are going to hear about manufacturing. It is 
essential and it is coming back in America. From car parts to 
industrial equipment, to semiconductors, America's 
manufacturing sector keeps us on the cutting edge of technology 
and world leadership.
    Thanks to historic achievements in tax and regulatory 
reform, our country is undergoing a manufacturing revival 
unlike we have seen in a very long time. The latest 
manufacturing index from the Institute for Supply Management 
has reached its highest level in 14 years. This number 
translates into surging growth and increased production of 
goods made in America.
    With the resurgence comes the return of manufacturing jobs. 
And in fact, The Washington Post recently reported, and I 
quote, ``Jobs in goods-producing industries, mining, 
construction, and manufacturing, grew 3.3 percent in the year 
preceding July, the best rate since 1984.''
    And with this increase in manufacturing jobs has come 
rising wages. According to the August Bureau of Labor 
Statistics quarterly release, compensation for workers has 
risen to a nearly 10-year high. These are the facts.
    The latest GDP report shows that our economy has grown at a 
rate of 4.2 percent, and we anticipate this week's GDP report 
will show similarly strong results. Further, earlier this 
month, the National Federation of Independent Business--and my 
wife and I were small business owners for 21 years--it reported 
that its small business optimism index has surged to 108.8 
percent, the highest level ever recorded in the survey's 45-
year history. These are the facts.
    Of course, all these numbers can seem abstract, but what 
they represent is not. Our economy is strong and growing. This 
surge of American manufacturing has come from business, both 
large and small. Jobs are being created. New products, 
technologies, and medicines are being invented. And consumers 
have more money in their pockets to spend, to put away for 
their children's education, or save toward retirement. Workers 
are once again able to find solid, dependable jobs with good 
pay.
    And it is all the result of this Congress, the Republican 
Congress, investing in America by reducing the burdens and 
taxes and unnecessary regulations imposed on job creators. You 
know America has always been a nation of doers and makers. It 
has always been a place where anyone with dedication and 
ambition can start their own enterprise and take the future 
into their own hands. By any measure, we are witnessing a 
reinvigoration of that great and proud tradition as Americans.
    So, I am proud of this committee's work. Most of it has 
actually been bipartisan. And we are getting pro-growth, pro-
innovation policies and we are helping our entrepreneurs do 
what they do best.
    That includes we really appreciate our witnesses here 
today. Thank you all for the help you are doing to grow jobs in 
America. We know there is a lot more work to be done. We know 
there are unsettled parts and challenges in the economy. But we 
are here to be your partner, to help American workers succeed 
and American businesses grow, and manufacturing get even 
stronger.
    So, with that, Mr. Chairman, I yield back the balance of my 
time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning and thank you to our witnesses for appearing 
before us today to discuss the state of a quintessential 
American industry: manufacturing. From car parts, to industrial 
equipment, to semiconductors, America's manufacturing sector 
keeps us on the cutting edge of technology and world 
leadership.
    Thanks to historic achievements in tax and regulatory 
reform, our country is undergoing a manufacturing revival 
unlike any we've seen in a long time. The latest manufacturing 
index from the Institute for Supply Management has reached its 
highest level in 14 years. This number translates to surging 
growth and increased production of goods made in America.
    With this resurgence comes the return of manufacturing 
jobs. The Washington Post recently reported, ``Jobs in goods-
producing industries--mining, construction and manufacturing--
grew 3.3 percent in the year preceding July, the best rate 
since 1984. . .'' \1\
---------------------------------------------------------------------------
    \1\ ''Under Trump, the jobs boom has finally reached blue-collar 
workers. Will it last?'' (September 9, 2018)https://
www.washingtonpost.com/business/2018/09/09/under-trump-jobs-boom-has-
finally-reached-blue-collar-workers-will-it-last/?noredirect=on&utm--
term=.9c7b28e2a87f
---------------------------------------------------------------------------
    And with this increase in manufacturing jobs has come 
rising wages. According to the August Bureau of Labor 
Statistics quarterly release, compensation for workers has 
risen to a nearly 10-year high.
    The latest U.S. GDP report shows that our economy has grown 
at a rate of 4.2 percent, and we anticipate this week's GDP 
report will show similarly strong results.
    And further, earlier this month, the National Federation of 
Independent Business reported that its ``Small Business 
Optimism Index'' had surged to 108.8 percent, the highest level 
ever recorded in the survey's 45-year history.
    Of course, all these numbers can seem abstract, but what 
they represent is not. Oureconomy is strong and growing. This 
surge of American manufacturing has come from businesses both 
large and small. Jobs are being created. New products, 
technologies, and medicines are being invented. Consumers have 
more money in their pockets to spend, to put away for their 
children's education, or save towards retirement. Workers are 
once again able to find solid, dependable jobs with good pay.
    And it is all the result of this Congress investing in 
America by reducing the burdens that taxes and unnecessary 
regulations impose on job creators.
    America has always been a nation of doers and makers. It 
has always been a place where anyone with dedication and 
ambition can start their own enterprise and take the future 
into their own hands. By any measure we are witnessing a 
reinvigoration of that proud tradition.
    I am proud that this committee's dedication to pro-growth, 
pro-innovation policies has contributed to this moment. I am 
even more proud of America's workers and business leaders.
    That includes our witnesses for today's hearing. Thank you 
for all you do to help create jobs and keep America a place 
where we make things that improve lives and change the world. 
Please let us know what we in Congress should do to continue 
supporting American manufacturing and the remarkable economic 
growth we see today. It's our job to make it easier for you to 
succeed.
    Thank you and I yield back the balance of my time.

    Mr. Latta. Thank you very much. The gentleman yields back 
the balance of his time.
    The Chair now recognizes the ranking member of the 
subcommittee, the gentlelady from Illinois, for 5 minutes.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman, and I apologize to 
you, to our witnesses, and my colleagues for being late.
    I want to thank you, and Mr. Stettner, Mr. Paradowski, Ms. 
Moyers, and Mr. Anderberg for being here today.
    Manufacturing helped build the American middle class. 
Strong wages helped build products that Americans were proud 
of. And unfortunately, too many misguided policies over the 
last 30 years have allowed our manufacturing sector to slowly 
whither away.
    I am pleased to see that my colleagues invited as witnesses 
executives from businesses that used the most recent Republican 
tax cut to invest in their businesses by increasing wages and 
better training for their workers. However, closer examination 
of macro-level data, a very different story than the one that 
we will be told today can be heard.
    I would like to submit for the record this blog by Josh 
Bivens from the Economic Policy Institute for the record. I ask 
unanimous consent.
    Mr. Latta. Without objection.
    [The information appears at the conclusion of the hearing.]
    Ms. Schakowsky. What this will show is that, despite the 
Republican rhetoric, we haven't seen anything close to an 
explosion in investment. Examination of the Census Bureau's 
Manufacturers' Shipments, Inventory, and Orders Data from 1992 
until today shows current investment levels far below that of 
even 2009.
    We shouldn't be surprised. At the end of the last year, 
Republicans' political consultants connected business with 
public relations firms before the tax bill was even signed into 
law. They touted one-time bonuses as evidence that the tax bill 
would lead to higher wages in the long term for workers. Today 
is the next step in that well-orchestrated public relations 
campaign, and I don't mean in any way to denigrate our great 
witnesses that are here today.
    So, where have the $2 trillion gone? Since the tax bill 
passed, we have seen an explosion of stock buybacks. When 
companies invest in buybacks, they juice their stock prices in 
the short term, creating what Senator Warren described as a 
sugar high, that leads companies to neglect investment in 
equipment, wages, and worker training.
    According to a recent report by the Roosevelt Institute and 
the National Employment Law Center, in the 3 years prior to the 
enactment of the tax law, public companies across the American 
economy spent roughly three-fifths of their profits on 
buybacks. So, what happens when Congress and the Trump 
administration give corporate Americans more cash? Examining 
the first half of this year, it is clear corporate America 
likes to spend on buybacks. Share repurchases surged 43 percent 
in the first half of this year versus a far less inspiring 
increase of 27 percent for capital expenditures.
    Consider Walmart, the Nation's largest employer. Walmart 
supported the tax bill and claimed it would help workers, but 
it is not clear how much of that $2.2 billion in annual tax 
cuts actually helped its more than 1.4 million Americans. 
Shortly after enactment, the Walmart board authorizes $20 
billion in stock buybacks. The Roosevelt Institute released a 
separate report estimating that, if Walmart had directed half 
of that toward wages, hours worked compensation could have been 
increased by more than $5 per hour, which would transform the 
lives of many of those workers and help provide a living wage.
    As Members of Congress, wI am looking at the time--as 
Members of Congress, we are approached by employers all the 
time who say they can't find qualified workers, that there is a 
skills gap. I would argue that America's skills gap is really 
more of a wage gap. The declines in union density and a focus 
on core competence and executive salaries, instead of training 
and capital investment, have dried up the private sector's role 
in workforce development.
    So, I am going to skip to the end and submit the whole 
thing for the record.
    I just want to say that what my Republican friends won't 
tell you is how the administration's deregulatory agenda, 
again, makes the wallets of the wealthy fatter while risking 
health and safety of the middle class and working poor.
    I hope that we will hear some of the good news today and 
that what we are going to hear from all of you is that we can 
do better in this country.
    Thank you very much, and I yield back.
    Mr. Latta. Thank you very much. The gentlelady yields back.
    And that will conclude with our members' opening 
statements.
    The Chair would like to remind members that, pursuant to 
committee rules, all members' opening statements will be made 
part of the record.
    And as the gentleman from Oregon stated, the chairman of 
the full committee, we do have two subcommittees running 
simultaneously today. So, members will be coming back and forth 
during each committee hearing.
    Once again, I want to thank our witnesses for being with us 
today. We greatly appreciate your taking the time to testify 
before our subcommittee today. And today's witnesses will have 
the opportunity to give a 5-minute opening statement, followed 
by a round of questions from our members.
    Our witness panel for today's hearing will include Ms. 
Nikki Moyers, who is Vice President of Operations at Jerl 
Machine in Perrysburg, Ohio, right up the road from where I 
live; Mr. Edward Paradowski, the President of Apache Stainless 
Equipment Corporation in Beaver Dam, Wisconsin; Mr. Andrew 
Stettner, the Senior Fellow at the Century Foundation, and Mr. 
Eric Anderberg, the Vice President of Dial Machine in Rockford, 
Illinois.
    Again, we want to thank you all for being with us today. 
And if you would, pull that microphone up close and just press 
the button. You will see the little red light go on there.
    And you are recognized, Ms. Moyers, for your opening 5-
minute statement. Thank you very much for being with us.

 STATEMENTS OF NIKKI MOYERS, VICE PRESIDENT, OPERATIONS, JERL 
 MACHINE, INC.; EDWARD PARADOWSKI, PRESIDENT, APACHE STAINLESS 
EQUIPMENT CORPORATION; ANDREW STETTNER, SENIOR FELLOW, CENTURY 
 FOUNDATION; AND ERIC ANDERBERG, VICE PRESIDENT, DIAL MACHINE, 
                              INC.

                   STATEMENT OF NIKKI MOYERS

    Ms. Moyers. Thank you. Good morning. Thank you, Chairman 
Latta, and subcommittee members, for inviting me here on behalf 
of my company.
    My name is Nikki Moyers. I am Vice President of Operations 
at Jerl Machine, Inc., in Perrysburg, Ohio. The company was 
started by my grandfather, Bob Brossia, out of his garage in 
1973. Today, Jerl boasts 67 employees and caters a variety of 
industries. The state of American manufacturing is, obviously, 
near and dear to us because it is our jobs, but also because it 
is our family legacy.
    In the past year, Jerl has seen a production resurgence 
unprecedented in its 45-year history. Our core customers are 
sending in more purchase orders than ever. We are hearing from 
companies that haven't done work with us for over a decade, and 
more and more new opportunities are surfacing.
    Our suppliers are just as busy, proving that our good 
fortune is not unique in this industry. And I attribute much of 
the upswing to the passing of the tax cuts and JOBS Act late 
last year, specifically its provision to cut corporate taxes.
    We are on the right track to have our highest sales and 
highest profit of year on record for 2018. Jerl has been able 
to give much-deserved wage raises to our employees, has already 
paid out two separate bonuses to all of our employees, and has 
another plan for late November. We have also added three 
machines to our shop floor to keep up with our orders.
    But our growth is hindered. We are currently running at 60 
percent capacity, despite the fact that our phones are ringing 
more than ever. We are forced to turn away work because we do 
not have the skilled labor to meet our deadlines. We cannot 
fill our open positions, and the looming retirement of 15 
percent of our workforce will only worsen this problem. I am 
confident that the current manufacturing boom is not a fluke, 
but unless strides are made to fill the skilled manufacturing 
jobs that nearly every company like ours has, we cannot sustain 
the growth.
    It is no coincidence that I am here today as the lone 
female up here representing my field. In my time at Jerl, we 
have employed a single female machinist. Our workforce is over 
90 percent Caucasian. Not only are we lacking in skilled 
workers, we are suffering from a lack of diversity in 
manufacturing.
    And I think the answer lies in our schools. It is time to 
fund the industrial arts and practical life skills as part of a 
core curriculum. Fine arts education can't be allowed to cease 
either, as so much of what we do requires the craft of an 
artist's eye. Trade and technical schools must be touted by 
counselors, teachers, and parents as options equal to 
traditional 4-year colleges. Students need to know our field 
and that we offer high-paying careers.
    We are on the right track. The current administration has 
shown that it values the manufacturing field and it recognizes 
its impact on our country as a whole. As long as it continues 
to facilitate open discussions such as this hearing, 
manufacturing will endure with continued hard work. We have 
never feared hard work. Bring on the future.
    Thank you.
    [The prepared statement of Ms. Moyers follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much for your opening statement.
    And, Mr. Paradowski, you are recognized for 5 minutes.

                 STATEMENT OF EDWARD PARADOWSKI

    Mr. Paradowski. Good morning. Thank you, Chairman Latta, 
Ranking Member Schakowsky, members of the subcommittee, for the 
opportunity to testify before you today.
    My name is Ed Paradowski. I am President of Apache 
Stainless Equipment Corporation in Beaver Dam, Wisconsin. 
Apache Stainless Equipment is a manufacturer of capital 
equipment from high alloys, primarily stainless steel, with 
annual revenues of approximately $43 million and 171 employees, 
most of which are skilled trades people.
    I also have responsibility for a second business, which is 
a company called Dalton Ag in Lenox, Iowa. We are a 
manufacturer of agricultural equipment; annual revenues of 
about $9 million and 43 employees. Both businesses rely heavily 
on the skilled trades, and that is the pacing item for both of 
our businesses to grow.
    Both Apache Stainless and Dalton Ag are part of a holding 
company, Dexter Apache Holdings, which we have six companies 
within our holding company, five of which are manufacturing 
located in Wisconsin and Iowa. The five manufacturing 
businesses operate in unrelated business segments. We are a 100 
percent S corp ESOP. On a daily basis, as an S corp ESOP, we 
are fulfilling the American dream for our current 897 employee/
owners. That number would be higher if we could find more 
skilled trades people.
    My testimony today will reflect my personal perspective on 
the effects of current economic policy on the health of the 
U.S. economy with a specific focus on the manufacturing sector. 
To provide some backdrop for the testimony, I will give a 
little bit of my personal background.
    First, I would like to recognize Mr. Walden for 
acknowledging entrepreneurs and opportunity.
    I was born on the south side of Milwaukee, raised the 
youngest of six kids, and I started a manufacturing company at 
the age of 28 with no money and no real business experience. 
So, I love the opportunity that this country provides. And the 
root of my perspective is really based on the experience I have 
had since then.
    In the last 10 years, I have really focused heavily on 
advocacy activities. I work very closely with local and state 
government, national politicians, events such as this today. We 
host politicians and anybody who is willing to come visit our 
facility to educate them on what manufacturing is all about.
    Our state chamber of commerce, Wisconsin Manufacturers & 
Commerce, I work closely with them. They are an ally/partner to 
our business. To work, government needs to be an ally/partner 
to manufacturing and commerce in general. And they are a great 
leader in the State of Wisconsin.
    Most of you, I would suspect, are familiar with the MEP 
Network nationwide. In the state of Wisconsin, our governing 
overarching body for the MEP Network is the WCMP, Wisconsin 
Center for Manufacturing & Productivity. I sit on that board 
and, actually, I'm chairman of that board. So, the public-
private partnerships that the MEP Network provides, I am 
familiar with that as well.
    We all talk about education, education reform, and the 
skills gap. The skills gap is definitely not a wage gap. We 
could speak later to that.
    Our Wisconsin Department of Public Instruction, which are 
the K-12, they are the core of how our children are educated. I 
have been a member at the very ground level of what we call the 
Regional Career Pathways Project in the State of Wisconsin. 
Actually, I was asked by our state superintendent to present 
for the State of Wisconsin in the grant competition three years 
ago, which the State of Wisconsin won a $2 million grant for 
education reform. So, I am deeply involved in education reform. 
It is one thing to talk about the problem; it is another thing 
to get in there and to also help solve it.
    And then, the National Association of Manufacturers was 
mentioned. Actually, I am out here today for a board meeting, 
which, unless I say something completely wrong, I will be 
elected to their board tomorrow.
    In summary, my perspectives are not just of a manufacturer, 
but a manufacturer that works closely with other manufacturers, 
with government, and with education. As I am running out of 
time here, I will hit just a couple of the high points, and 
really maybe just one philosophical perspective.
    I use this as an analogy quite often, the role of 
government in manufacturing. In a manufacturing business, we 
make our money on the shop floor. We add value to raw materials 
and we make goods and services. And myself and others in my 
office, we are corporate overhead. Our corporate overhead needs 
to do two fundamental things. We need to make our shop floor 
more productive, maximize output/efficiency, and there are also 
some compliance issues, safety and things of that nature. And 
the second thing is there has to be a sustainable economic 
balance between the cost of corporate overhead and how much 
activity is going on on the shop floor.
    In a soft year where manufacturing might soften a little 
bit, I don't just put more burden on my shop floor in terms of 
dollars; I actually have to downsize my corporate overhead. And 
that is the role of government to the private sector, not just 
manufacturing.
    The private sector is really four fundamental things. You 
mine it; you grow it; you make it; you invent it. And 
government needs to be an allied partner to that process, so 
that the private sector can grow. And tax reform is a piece of 
that, as are tariffs, and there has to be a sustainable 
economic balance between the cost of government and the size of 
the private sector.
    I will make one statement, as I am running out of time 
here, very quickly. There was a comment that was made--oh, 
where did it go?--there was a comment that was made regarding 
Mr. Walden said that the government--no, I'm sorry, I already 
acknowledged Mr. Walden. There was a statement that was made by 
Mr. Pallone, actually, that industry needs to be a partner to 
government. And that exactly is the problem; government needs 
to be a partner to industry. I think we have got this a little 
bit reversed.
    Thank you.
    [The prepared statement of Mr. Paradowski follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much for your testimony.
    Mr. Stettner, you are recognized for 5 minutes.

                  STATEMENT OF ANDREW STETTNER

    Mr. Stettner. Good morning, Chairman Latta and Ranking 
Member Schakowsky. First, let me commend the committee for 
holding this hearing.
    Over the past year, the Century Foundation and its Bernard 
L. Schwartz Rediscovering Government Initiative sponsored the 
High Wage American Project, researching and touring the 
industrial Midwest to understand the future of manufacturing as 
a provider of good jobs and economic growth. Representative 
Schakowsky, several of the community leaders involved in the 
tour had a chance to meet you 2 weeks ago today when they came 
to Washington to present our findings, which I have submitted 
for the record.
    While no one in the Midwest has such rose-colored glass as 
to believe manufacturing will ever provide 30 percent of the 
jobs, like it used to, the message was loud and clear. 
Manufacturing matters to communities. Our research finds that 
in small towns in industrial states from Michigan to 
Mississippi, manufacturing still accounts for one in four 
private sector jobs. Manufacturing brings high-tech jobs to 
these firms into small towns like Phillips, Wisconsin, where 
Phillips Medisize has developed from a manufacturer of action 
figures to a worldwide provider of advanced molding and 
engineering services.
    The time is right for Congress to take action to build a 
proactive national manufacturing strategy. Resilient 
manufacturers have added back 1.26 million of the 5.7 million 
jobs lost from 2000 to 2010. But there are serious concerns. 
Our diminished production capacity has kneecapped our ability 
to innovate, as America had ceded its edge in high-tech 
manufacturing to advanced East Asian nations and Germany. And 
while manufacturing still pays 10 percent more than other jobs, 
that wage advantage has eroded. Low-paid, temporary help 
workers represent 11 percent of the manufacturing workforce 
today, up from just 2.3 percent in 1989.
    But a national manufacturing strategy must go beyond 
international trade and tax issues. Rather, Federal policies 
should focus on investments to create the conditions for 
manufacturers to compete and thrive in a global marketplace and 
for the manufacturing workforce to prosper.
    Communities are taking action. The Federal Government can 
help by helping them build public-private partnerships and spur 
high-tech manufacturing, reinvest in the workforce, retain and 
restore good jobs, and mobilize capital.
    The future of U.S. manufacturing lies in being the most 
high-tech, not the lowest cost. In Cleveland, we visited the 
ArcelorMittal steel mill, the first in the world to create a 
ton of steel with a single hour of labor, which sees a 
strategic advantage in environmental regulations that increase 
demand for high-grade, lightweight steel. Indeed, our ability 
to be a global leader in the clean economy depends on a robust 
manufacturing sector to create the next generation of green 
products.
    Look at our competitors. The Made in China 2025 campaign is 
a multibillion dollar effort to take China from a commodity 
producer to a leader in major advanced manufacturing exports 
from alternative energy to rail equipment.
    Manufacturing USA is our response. There are 14 applied 
research institutes targeting technologies like 3D printing in 
Youngstown, robotics in Pittsburgh, and super-strong, 
lightweight metals in Detroit. But, to truly compete, we have 
to step up Manufacturing USA into its full plan of 45 
institutes and provide permanent Federal funding matched by the 
private sector.
    Now manufacturing can only grow if it has a workforce for 
the future. In Chicago, our research found there are nearly 
twice as many jobs open as workers hired. But manufacturing 
workforce pipelines, apprenticeship, and vocational education 
have withered. And a generation who experienced industrial 
decline tell their children to shun factory jobs.
    Congress can help by devoting resources that incentivize 
employers to double the number of apprenticeships in 
manufacturing in 5 years and provide new, focused resources at 
the K-12 level. These programs need resources for mentoring and 
support services to help women and people of color to break 
into the trades.
    That is the approach of Manufacturing Renaissance in 
Chicago to help some of the young people in some of the most 
violence-prone neighborhoods in the Nation to get industry-
recognized credentials they need for high-paying jobs. And 
surely manufacturers will have more success recruiting when 
they pay decent wages, respect collective bargaining, and 
provide safe workplaces.
    Communities are developing innovative ways to work with 
local manufacturers to save and grow jobs, relying on smart, 
more sustainable approaches than simply offering tax giveaways. 
Pennsylvania Strategic Early Warning Network saves thousands of 
jobs by providing targeted business turnaround assistance to 
small and medium-sized companies at risk of closure.
    Federal policies should give these communities stronger 
tools by strengthening bedrock programs like the MEP, new 
initiatives like layoff aversion in WIOA, and the recently-
authorized Defense Manufacturing Community Partnership Support 
Program.
    Lastly, the Federal Government should incentivize further 
private investment in manufacturing through an industrial bank 
focused on national needs and a clearinghouse that mobilizes 
impact investors to bring sustainable manufacturing jobs back 
into distressed communities.
    In conclusion, manufacturing is regaining its footing, but 
there is much more to be done. I urge the committee to continue 
its focus on boosting the manufacturing sector, and I welcome 
the opportunity to work with you in the future.
    [The prepared statement of Mr. Stettner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you, Mr. Stettner, for your testimony.
    Mr. Anderberg, you are recognized for 5 minutes for your 
opening statement.

                  STATEMENT OF ERIC ANDERBERG

    Mr. Anderberg. Thank you, Mr. Chairman, and thank you, 
Ranking Member Schakowsky, and thank you, Congressman 
Kinzinger, for allowing me the opportunity to be here today.
    Dial Machine, we are family-owned for 52 years, a precision 
contract manufacturer. We make parts for various industries, 
mining, oil and gas, a lot of fossil fuel. We do work for the 
government, defense, the national laboratories.
    And I can tell you today, I don't want to sound like a 
broken record, but our backlogs are way out and the work is 
tremendous today. In my 25 years, I have never seen such 
optimism. My father has been in this industry for 61 years and 
never seen the optimism and the rate at which we are growing 
here today.
    Currently, to give you an idea, our sales, as of the third 
week of September, we are 30 percent over all of last year, 
over 50 percent over all of 2016. So, things are on the right 
track.
    I think three things have happened in Washington that have 
helped the manufacturing sector. That is the tax, the 
regulatory, and the trade policy changes that have been coming 
forward.
    Tax, the C corp and the last tax legislation, the C corps 
got an income tax reduction to 21 percent. That has created 
incentive for the large corporations to bring work back. And I 
can tell you personally it has happened; we are benefiting from 
it. I have been told from companies like Caterpillar that more 
is coming. Large corporations are also investing in their plant 
and equipment with that money.
    S corps, such as ourselves, we didn't get the tax cut that 
the C corps got. Hopefully, that could be changed. But that 
extra cash and capital is being put to use. We are putting it 
to use.
    And also, along with that is the increase in the expensing 
in the 179. And, then, increasing the accelerated depreciation 
back to 100 percent has been a big boost, and it is an 
extremely useful and important tool for manufacturers such as 
ourselves to be able to afford to invest in capital equipment.
    Because of all the increased activity, there is a scarcity 
of labor. And because of tax--I credit the tax policy--the 
wages have increased. We have been increasing the wages of our 
people, in part, because it is a defensive mechanism to keep 
other people from stealing our people. And also, we are 
offering higher wages for people to start as applicants at our 
place.
    The regulatory environment. Rolling back regulations that 
were hurting the fossil fuel industry, I will give you an 
example, coal. We do a lot of work for Caterpillar, and all the 
large mining bulldozers, we have parts in each machine. 
Starting in 2013, we went from 2011-2012 we were making about 
six to eight sets of bulldozers a day. In 2013, one model 
dropped from 400 a year to 56 per year, and by 2016, we were 
down to about a half bulldozer shipping a day. We are back to 
five or six, but we are constrained because of capacity or 
people.
    So, the regulatory pushback has been terrific. My family, 
we also farm. And so, you cannot have a regulatory environment 
out here that is suggesting we are going to regulate puddles of 
water on your farm or we are going to tax every head of cattle 
for flatulence. That sends a terrible message to industry, 
farming, and ranchers; we are not going to invest. You can't do 
it.
    And then, trade. This is probably the most important part 
and probably the most significant change in 40 to 50 years. It 
is the first time an administration has acknowledge the problem 
we have with trade, international subsidized work coming into 
this country or subsidized product. The Chinese steel industry, 
the Chinese have been huge offenders, and we just cannot 
compete. That change and the talk of subsidy, if you come to 
Rockford, for example, I can point out many industries we have 
lost over the past several decades. When people talk about we 
are starting a trade war, well, I am here to tell you we have 
been in a trade war in this country for over 40 years, and it 
is the first time it has been acknowledged. It is the first 
time we are doing something about it. And this has created a 
level of confidence, too, that has helped to invest in your 
plant and equipment.
    The most significant challenge that manufacturing has, you 
have already heard it, people. We can't get them. We need 10 to 
15 more skilled individuals on our floor right now. And I am 
here to tell you that we are turning work away. If I had the 
capability, I could double the size of my plant if I had the 
capacity of people, and we just can't get them.
    Fingers can be pointed every direction. I think industry 
didn't do a good enough job marketing ourselves to the 
students, to parents, to educators, and the vo-tech schools 
closed years ago, but they are reopening again, and that is 
promising.
    Apprenticeship programs. The small guys are training; the 
large companies are not. And I think we need to enlarge the 
pool of labor that everybody can work from, and we need to do 
something to incentivize the large corporations to do so again, 
because they just won't because it doesn't look good on 
quarterly numbers, quite frankly. So, anything that could be 
done with that would be tremendous.
    There is just too much to talk about to do it in 5 minutes. 
I hope I get some good questions, that we have good 
conversation today.
    Thank you.
    [The prepared statement of Mr. Anderberg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much for your testimony and what 
you say about can't find workers and other folks. I have heard 
across my district it is the No. 1 issue out there.
    This is going to conclude our opening statements from our 
witnesses. And again, we appreciate you all being with us 
today. We will start the questions from our members, and I will 
start with my questions for 5 minutes.
    Ms. Moyers, if I could start with you, Jerl Machine 
provides precision metalworking products and services in 
Perrysburg, Ohio. Could you tell the subcommittee what trends 
you have seen in the marketplace for your products and 
services, and how that has changed over the last couple of 
years?
    Ms. Moyers. Yes. Thank you very much.
    Up is what we are seeing. In the last 2 years, we have been 
steadily growing. We actually had, in 2016, one of our lower 
sales, lower profit margins. It was a little bit, I think, of a 
trend from the recession. We had gone up a little bit, and 
then, it went back down. But, since the end of 2017, we have 
seen nothing but up. We have grown our sales. We have grown our 
profits. Our profits are nearly 20 percent so far for this 
year, when we were seeing only single digits back into 2014. 
And we have also increased our staff as much as we can. Of 
course, we need to increase it more. But we have our phones 
ringing off the hook and we are turning down work.
    Mr. Latta. One of the things I know that has been mentioned 
already--and I just brought up again--as I have seen across my 
district, people just can't find folks to work. That is a big 
issue out there, and it is a very competitive job market out 
there.
    What has been your experience with the wage competition in 
the last couple of years?
    Ms. Moyers. Well, I think there are two issues. We can't 
find people to work and we can't find people that are skilled. 
What we are finding are unskilled who don't necessarily want to 
come to work every day, who don't want to work as hard as we 
need them to work.
    And the other issue is our skilled workers, there are so 
few workers for the jobs that we need to fill that our 
competitors, and also our manufacturing that we are friendly 
with, are stealing our workers, or attempting to. We have had, 
I believe, three or four in the past year that have said they 
have gotten offers from companies that we are actually friendly 
with and do business back and forth, because no one can find 
the workers. So, they have had to resort to poaching them from 
other manufacturers.
    We have raised wages because we have to. So, talk that 
corporations are not using the tax cuts and the money to raise 
wages is just simply not true, because we have to. If we don't, 
someone else is going to and we will lose our workers.
    Mr. Latta. You bring up the point about finding folks that 
are skilled out there and bringing them in. I know in some 
companies they have said, look, if you are willing to work, we 
will train you. With the legislation that was recently passed 
on career and technical education here, do you see that is 
going to be a help? I know in our area, and across Ohio with 
our high school career centers, and also working with our 2-
year institutions out there--are you seeing something we should 
be doing or do you see something that is bright on the horizon?
    Ms. Moyers. It is a start. I think that investing in the 
vocational schools and the trade schools, we are very fortunate 
to have one in our backyard in Perrysburg, Penta Community 
College, and they cater to kids for everything from 
manufacturing to veterinary programs and culinary arts. They do 
a little bit of everything and it is wonderful, and we get a 
lot of our young employees from Penta. But it is a single 
facility and they can only cater to so many people, and we need 
more.
    We also need the vocational skills and trade skills exposed 
to students in regular K-through-12 schools. I think that we 
need to divert funding to bring back the industrial arts, to 
keep up fine arts. Even practical life skills, job interviews, 
balancing budgets, financial things, they need this. We have 
students who come in to job shadow and some of them we have 
hired. And our young employees don't know how to fill out forms 
for health insurance, don't know how to fill out the tax forms. 
These are vital life skills that they need to have and we need 
to be teaching them.
    Mr. Latta. Also, you reference in your testimony the 
innovation. What is the climate out there and the regulatory 
changes that could help drive innovations for companies like 
yours?
    Ms. Moyers. My grandfather has taught me a lot of things. 
And one of the things that he told me in the past couple of 
years, when we were scaling back some of those overhead costs 
that my colleague here was talking here, one thing he told me 
we are never able to cut is going to trade shows, going to 
machine shows, to learn about what they are doing, to see what 
the new technology is, because that is what is going to keep us 
in business. He has never been afraid to do that.
    He started his business with some hand tools and a drill 
press, and now we are mostly CNC machining. We are breaking 
into new industries all the time, and I think that is so 
important. And that is the way that manufacturing is going to 
survive. We can't be stuck in our old ways. We can't be stuck 
with old technology. That is why we need new, young blood into 
the manufacturing, to encourage it.
    Mr. Latta. Thank you very much.
    My time has expired. At this time, I will recognize the 
gentlelady from Illinois, the ranking member of the 
subcommittee, for 5 minutes.
    Ms. Schakowsky. Thank you. Thank you very much.
    So, how many employees do you have, Mr. Anderberg?
    Mr. Anderberg. We have about 60 right now.
    Ms. Schakowsky. So, the three of you are small businesses. 
And so, I think this is a problem, some of the issues of the 
failure to close the wage gap or to invest in employees. It is 
probably different, and I think that you referred to that, that 
the private sector, large businesses, could do more to get 
involved in training, in being a public-private partnership.
    And you said, Mr. Paradowski, that your effort was to go to 
the government and say that there had to be improvements in 
education, and that it is really about government helping 
businesses rather than the other way around. I would suggest 
that your going and saying more tax dollars should be spent in 
some ways is a copout in what industry ought to do in order to 
help. Like we have in Germany, there are programs, public-
private partnerships with business to invest in the training of 
workers. I am not really asking a question here. That is my 
take and you can answer that. You can talk about that later.
    But I wanted to ask Mr. Stettner on the research that has 
been done. We have heard promises that the Trump tax cut would 
lead to increased worker pay and investment in manufacturing. 
However, we know that in the vast majority of cases--and I 
think this refers mostly to the larger corporations--that did 
not happen. In fact, economists analyzing the effect of the tax 
cuts found no significant sign of boosting investment or 
increasing wages.
    So, Mr. Stettner, was there a boom in manufacturing 
investment after the tax cut went into effect?
    Mr. Stettner. Manufacturing has been on a rebound, I would 
say a consistent rebound for the last 6 or 7 years. And the 
challenge going forward is to increase those investments and 
for companies to look at the workers as partners.
    I think a great example that comes to mind is at the 
ArcelorMittal steel mill they have authorized a strike because 
the company is doing very well and workers are just asking for 
their fair share of those profits in terms of wages and 
healthcare benefits. And so, the move is going to have to be to 
make sure that workers are treated as partners, so we keep our 
skilled manufacturing workforce.
    Ms. Schakowsky. So, is there some way that the tax breaks 
could have been drafted in a way that would incentivize 
investment and what might that look like?
    Mr. Stettner. I am not going to say that I am a tax expert. 
So, I don't want to get into the details. I do think there are 
ways in which, in fact, the tax bill made it cheaper for 
companies to outsource jobs overseas, and we need to really 
close those gaps, so it is not cheaper to put production and 
corporate headquarters overseas.
    Ms. Schakowsky. Thank you.
    I just want to go back to Mr. Paradowski. Other countries 
have invested in long-term strategies for their manufacturers. 
China has been mentioned, the Made in China 2025 campaign. But 
Germany has what is called the Fraunhofer Society. And both of 
these countries have retained more production and more jobs 
than we have. The German plan is a public-private effort.
    And I am just wondering what you think the private sector 
could do, the manufacturing sector? Because everyone is talking 
about we can't find the skilled workers. And if you want to 
comment on this, and there is time, Ms. Moyers, I would be 
happy to hear that.
    Mr. Paradowski. I would love to comment. The way I look at 
education, and I have stated this many times within the State 
of Wisconsin, education is the supply chain, the commerce. I 
don't know of anybody who goes to school to get an 
accreditation just to have it hang on their wall. They are 
doing it to ideally get a job.
    So, within the K-12 space in Wisconsin, I think there is a 
variety of things that need to happen. Awareness, nobody 
aspires to----
    Ms. Schakowsky. Yes, but I am not asking about what the 
State of Wisconsin can do. I am asking what the employers can 
do.
    Mr. Paradowski. The employers can certainly provide the 
data as to what jobs are out there, what the makeup of commerce 
is. There are a lot of kids going through school to get 
accreditations where there is not a job, and there are a lot of 
jobs where we don't have workers. Thus, we call that the 
``skills gap''.
    I don't refer to what we offer at Apache Stainless 
Equipment as jobs. I refer to them as careers. We want people 
to come in, and it is market-based wages. We will take 
unskilled people who we offer what we call the welding 
bootcamp. If you have never welded in your life, if you can 
come in and meet some basic requirements, passing a drug test, 
have some work ethic, we will teach you how to weld and we will 
pay you a market-based wage, which is far north of the minimum 
wage. We have a hard time finding people to do that.
    Ms. Schakowsky. OK. Do you mind if I continue for a while?
    Mr. Latta. Go ahead.
    Ms. Schakowsky. Thank you.
    Before I go to Ms. Moyers, I wanted to ask Mr. Anderberg, 
you mentioned that large corporations could be doing more. What 
did you have in mind?
    Mr. Anderberg. Well, I think there is a lot of short-term 
thinking. And unfortunately for them, I think it is catching up 
to them; they are realizing it.
    I go back in the past. Thirty years ago, a lot of large 
corporations and large manufacturers shuttered their credential 
programs. They got rid of them. And now, a lot of those people 
are retiring that went through those programs and there is a 
big gap. And shame on them, I think.
    Today, for example, in Rockford, we are fortunate; we have 
the Rock Valley College, and we have an apprenticeship program 
through our local Tooling and Machining Association that I am 
on the board of. We have a very successful apprenticeship 
program. It wasn't so some years back, but now we have over 120 
apprentices for skilled machinists, tool and die trade in the 
program just in Rockford today.
    And we are the only ones training. The small manufacturers 
are really the only ones training. And I think at some point 
the larger manufacturers will have to train again. It might 
take some time. But I think if there is something that could be 
incentivized for them to start apprenticeship programs again--I 
don't know if it is a tax credit. We talked about this. 
Actually, I talked about this last week, and we had a board 
meeting of our Tooling and Machining Association. Maybe a tax 
credit or something like that.
    I don't think we need to have taxpayer dollars going to the 
benefit of companies, but maybe let them keep some of their 
capital in the form of a tax credit, or something like that, if 
they have an apprenticeship that is an accredited program. Our 
apprenticeship program, it is accredited by the Department of 
Labor. Everyone gets a Department of Labor certificate at the 
end of their training. And so, maybe something like that could 
be done, but I just think the only way you are going to get 
them off the porch now is to incentivize them some way or 
another.
    Ms. Schakowsky. If I could? There is hardly anyone here 
today. So, I wonder if Ms. Moyers could just say a few words?
    Mr. Latta. Yes.
    Ms. Schakowsky. Thank you.
    Ms. Moyers. Thank you.
    To speak to your question to Mr. Paradowski, I think that 
what corporations can do is we need to make ourselves seen. One 
of the things that we are doing at our corporation is, with 
part of our charitable contributions, we donate to a place 
called Imagination Station in Toledo, Ohio, which is a science-
based museum and activity center that is geared toward 
children. We have done several activities with them. We have 
donated for the past 5 years, and we have also been a part of 
their outreach programs. They do a great STEM for girls 
program, and we have done that.
    I was lucky enough to be a participant one year. And so 
many girls--and I think the ages were 8 to 13--so many girls 
came up and said, ``I didn't realize a girl could be a 
scientist. I didn't know I could do this. I didn't know that 
there were these jobs.'' And that is one of the important 
things, is we need to just get ourselves out in front of 
people, so that they can see us and see what we do.
    Ms. Schakowsky. Thank you.
    I yield back.
    Mr. Latta. The gentlelady's time has expired.
    And just to follow up on Mr. Paradowski, what you said 
about welders, that is the No. 1 job out in my district, that 
if you have got that skill coming out of high school, you are 
hired immediately.
    The Chair now recognizes the gentleman, the vice chairman 
of the subcommittee, from Illinois, for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Again, thank you all for being here today.
    Mr. Anderberg, should the government mandate wages that you 
pay?
    Mr. Anderberg. No. No.
    Mr. Kinzinger. Give me, if you can, like generally, what is 
kind of the average, if you kind of put all your employees 
together, what is kind of an average hourly wage?
    Mr. Anderberg. I would say the average hourly wage is up 
into the mid-twenties.
    Mr. Kinzinger. And has that, you said that is----
    Mr. Anderberg. Not including benefits. Not including 
benefits.
    Mr. Kinzinger. And you said that has increased over the 
last few years?
    Mr. Anderberg. It is increasing, yes.
    Mr. Kinzinger. And that is because of?
    Mr. Anderberg. Scarcity.
    Mr. Kinzinger. What would have happened if, say, 3 years 
ago, Washington would have mandated the wage you are paying now 
back when the economy was hurting?
    Mr. Anderberg. Well, I will tell you, Congressman, as a 
small manufacturer, we made the decision in the 4-year slump we 
had between 2013 and 2017 to hold onto our people. We had built 
enough cash reserves up that we held onto them, gave them 40-
hour weeks. And we made it; we ate up all our cash reserves in 
those years. If we would have come out of that or had that come 
down, I would have laid off more people. It is just you can't 
do that.
    Mr. Kinzinger. And can you think of----
    Mr. Anderberg. Go ahead. Go ahead.
    Mr. Kinzinger. Oh, no, please.
    Mr. Anderberg. We talked about Germany. I have been in 
German machine tool plants. I have been in German manufacturing 
companies, and I don't want any mandates from the government. 
One thing the Germans have done is they have mandated that, if 
you are a manufacturing company, you have to have 10 percent of 
your workforce in an apprenticeship program. That is pretty 
good, but I think that is incumbent upon the manufacturer to 
make that decision, not government.
    Mr. Kinzinger. Yes, and I think there are some things to 
learn from the German system. I like, in fact, they introduce 
kids in high school, put them on different tracks, career 
tracks, past opportunities, show them options. And I think that 
is something, frankly, we can learn from. Germany has actually 
been criticized significantly in the EU for what they call 
keeping wages low. And so, I think to kind of look at the 
German system and say that is the answer, I don't think it is, 
even though, again, there are some things we can learn from 
them. They are very obviously technologically advanced and 
everything else.
    But I do think it is important that, since the enactment of 
the tax cut and the repealing of a lot of the regulations that 
you talked about that have been stifling, 1.7 million jobs have 
been created. Wages are up 2.7 percent. More than $4 billion 
has been paid to employees in terms of bonuses.
    Just 2 short years ago, three-quarters of manufacturers 
were saying that the biggest business challenges were our tax 
and regulatory environment. But, as of June this year, less 
than 20 percent say that that is a top concern.
    You look at it, and we should have these good arguments in 
D.C. That is the point of this place. But, if you look at it 
and you say, who are we asking, when you ask the people that 
are actually making the jobs, that are manufacturing, what is 
it you need and what is it you have seen, and they are telling 
us I think, by and large, that we are creating a better 
environment, and you look at the economic numbers, it becomes 
pretty obvious that it is working. Unemployment is at an 18-
year low. It is not perfect. We still have a lot of work to do. 
We have a lot of issues with training.
    You said you employ about 60 people, 45 of whom are skilled 
tradesmen, machinists, and assemblers, but you have a need for 
another 10 or 15, and you can't fill it. You also mentioned 
that this is a pervasive problem, not only in the manufacturing 
sector, but everywhere. Can you give us a couple of examples of 
other industries? And also, do you attribute the shortfalls to 
the same factors that have led to the shortfalls in 
manufacturing?
    Mr. Anderberg. Yes, I could talk about the construction 
industry. I know people who are building contractors, 
excavators; their people are retiring, too, in the next couple 
of years. I talked to one owner, Northern Illinois Service in 
Rockford. They can't get anybody. He is really concerned about 
his business.
    There are other service industries, everybody, everybody 
you talk to is having a problem getting people, specifically 
young people. And this is something I want to speak to. I 
touched on it a little bit in my writeup. This is a societal 
issue we are facing. We just can't seem to get young people 
into the trades.
    And what I have also found, it is a global issue. Just 
recently, we had a serviceman over from Germany to work on one 
of our machines. We have gotten to know these people pretty 
well. And we had another gentleman in earlier this year. We get 
into this conversation, and they say--ythese guys fly all over 
the world. They are in plants in Russia, China, India, 
everywhere. And they have told me, both of them, that you go to 
a plant in China or India, they tell us the same thing; they 
can't get young people into this trade, into this type of work. 
You walk into the plants; they are all older people.
    So, it is a unique situation. It is a unique challenge. I 
don't know if it is because manufacturing is not seen as a 
technological industry. It is. And maybe it is more of a 
marketing effort toward, like I said, the students, the 
parents, the educators.
    If you were at the IMTS show last week, there was a display 
where they showed voice-activated commands for making machine 
tools move. It is fascinating. My father and I were there, and 
we happened to see a lot of students there that day, and they 
had lounge couches there; you could sit and watch. It was the 
only booth that I saw where students sat and were extremely 
attentive to watching the demonstration. Maybe that is part of 
the answer. Maybe it is increasing the technology, making it 
more work like an app on your iPhone or your iPad. I think that 
has something to do with it.
    But I don't know. It is strange. I think everybody is 
experiencing the same thing. You can't get young people in. 
They last maybe a day and they don't come back.
    Mr. Kinzinger. Thank you. I have a thousand more questions, 
but I will just leave it by saying I think this is an area 
where, frankly, there can be a lot of bipartisan cooperation. 
We have these deep debates, but, ultimately, how can the 
government restructure our programs that exist, not new 
programs, but restructure them to make sure we are turning 
people onto these opportunities?
    So, thank you again for being here, all four of you.
    And I yield back.
    Mr. Latta. Thank you very much.
    The Chair now recognizes the gentleman from Texas for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman. Thank you and the 
ranking member for having this hearing.
    And I want to welcome our witnesses.
    Manufacturing--I come from the Houston area, the industrial 
part--my companies that are hiring are refiners, chemical 
plants, service industry, and the oil industry. What we have 
seen, and I have worked for a number of years because the way I 
got into college was I also was an apprentice at a newspaper. I 
learned to print a newspaper in the 1960s. And I asked the 
owner of the newspaper, I said, ``You hired me as an 
apprentice. Why didn't you go to the high school we had in the 
Houston area that had a printing vocational program?`` And he 
said, ``Their technology is so far behind, we couldn't do it.''
    So, over the last decades, we have taken vocational ed out 
of high schools. And our community colleges have been the one 
that should be taking it up. I have had a really good community 
college in my area where we have refineries, chemical plants, 
essentially, in a college who actually partners with the human 
resources of these, Shell, LyondellBasell, you name it, and 
say, what do we need to teach and get these students to have 
also a 2-year degree? But, then, they can walk onto your plant 
and work.
    That has been really successful, and I have been trying to 
get our other urban areas in Houston, community colleges, to 
talk with the people who hire the folks. And I have been to the 
locations and seen the training, and with these manufacturers 
who are doing that. Is that commonplace, that community 
colleges have taken over most of the vocational public?
    The apprenticeship I went through just was not a public 
one. It was a union, but I ended up being able to manage that 
newspaper after I got my apprenticeship because I had also 
gotten my undergraduate degree in business. I was just lucky to 
be able to have that kind of situation; whereas, so many of our 
young people coming out of high school, they may want to go to 
college because that is where everybody says they should, but 
they don't know how they can afford to get there. And that is 
why an apprentice program in a community college, where you can 
earn a living and you can also still go back and get you a 4-
year degree in whatever you want to do.
    Each of you stated you don't have enough younger employees 
to replace older employees who plan to retire. I have heard 
that for a number of years. As you said, even nationally, 
internationally, it is a problem.
    How can individuals enter the manufacturing industry right 
now if they don't have access to the educational programs like 
a community college or Manufacturing USA, or in my case just 
because the company wanted to hire me, and lightning strikes? 
What kind of program could do it? And I am real familiar with 
the German program. I have been to BMW and seen that. I don't 
know if that structure would fit in our country, but I do know 
we need to have an apprentice program that is viable, so 
employers could count on the skills that they are learning 
there, that they can come on the job and work.
    Mr. Paradowski?
    Mr. Paradowski. I would say that it is the awareness. There 
is certainly a stigma around manufacturing. I know when I was 
in high school in the early eighties, I went through a 
technical high school, market trade and technical high school, 
learned the trade. In school, we were all being told that, if 
you don't have a 4-year degree, at some point soon you are not 
going to have a job. So, I think maybe kids have been 
brainwashed into thinking that they have to go to a 4-year 
institution.
    It is the awareness of what manufacturing is about. Our 
facilities have become very technology-driven. It is not dark, 
dirty, and dangerous like maybe some people believe.
    Every single school teacher at the Beaver Dam High School 
in our community has been through our facility, and most of 
them have never been through a manufacturing facility prior to 
coming through. That is our role as the private sector, is we 
need to really drive the awareness that these careers; they are 
not just jobs. It is very technology-driven. It is the future. 
There will always be a sizable place in the economy for 
manufacturing. It is not going away in its entirety. Anybody 
who believes that is somewhat naive, I believe, and no 
disrespect to anybody who might believe that.
    But we certainly have a role to work as partners with 
education and K-12 and the tech college system, and any of the 
institutions out there that are educating our kids. Wisconsin 
Tech College System is one of the best tech college systems in 
the country. The average age of a tech college student in 
Wisconsin is 27 years of age, which would lead me to believe 
that they were out figuring out other things first before they 
realized maybe I want to go down the path of a tech school. I 
would rather that the average age be 18 or 19. That means that 
the supply chain speeds to the workforce.
    Mr. Green. Any other response? I thought I had 4 seconds.
    Mr. Stettner. I just wanted to, when we talked about 
existing programs, what it made me think of is community 
colleges don't have an incentive to do technical training. A 
lot of the Federal student aid programs will not pay for that 
training, and the companies have to cover all the tuition. So, 
we have to kind of level that playing field. I think it is one 
kind of thing that we could do and I certainly support.
    Mr. Green. Thank you, Mr. Chairman. I know because my first 
two terms I was on Education and the Workforce, and that 
committee has prime jurisdiction. But I would sure like to see 
programs in our Department of Labor that would actually look 
for those skills training that they can go out and walk onto 
that job. So, thank you, Mr. Chairman.
    Mr. Latta. Thank you very much. The gentleman's time has 
expired.
    And the Chair now recognizes the gentleman from West 
Virginia for 5 minutes.
    Mr. McKinley. Yes, thank you, Mr. Chairman.
    And you on the panel, you saw an opportunity or you saw 
earlier today in this hearing why Congress is considered to be 
so dysfunctional when you saw the attacks that went underway 
over the tax cut. When we are talking about manufacturing, 
people want to go back on the other side and talk about the tax 
cuts and that they haven't been productive. And the fact that 
one person referenced the fact that they were all used for 
buybacks, and I am sure there were some. I am sure there were 
some. But just keep in mind that, according to Fortune 
magazine, of the Fortune 500, the top S&P 500, they only 
represent 17--and I shouldn't say ``only''--but they represent 
just 17 percent of the workforce, the publicly-traded 
companies.
    So, we are dealing with 117 million jobs that are in these 
small and medium-sized companies. They are not doing buybacks. 
It is just a distraction of what this fight is about.
    Because we have seen in West Virginia, as a result of the 
tax cut, what it has done is strengthened our manufacturing. We 
have had manufacturers that make truck parts, truck bodies, are 
now going to triple the size of their operation in West 
Virginia. Toyota that makes engine blocks is going to put $120 
million more into it, thanks to the tax cuts, down in Buffalo, 
West Virginia. ATK was bought by Northrop Grumman, and they are 
going to expand their operation in manufacturing in West 
Virginia. Boeing just bought Aurora Space Flight, making 
aerospace parts, as a result of the tax cuts.
    So, I am seeing some positive. It is larger companies, but 
also I just had an opportunity this last weekend to talk with a 
small manufacturing company, Panhandle, with Bob Contraguerro, 
out of Wheeling. He didn't use it for buybacks or increased 
dividends. He hired more people. He has expanded his operation. 
He is buying more trucks. He is doing all the things he can, 
but he is facing the same problem that you all have talked 
about; he can't find qualified people for that.
    So, my question has to do with the workforce. I think 
across the country we have gone away from vocational education. 
We are not making the incentives anymore for apprenticeship 
programs in our trades.
    I am chairman of the Building Trades Caucus, and we know 
desperately we need plumbers, pipefitters, carpenters, and 
electricians to be able to that. We have got to be able to get 
that base back again.
    So, I am curious to see, from your incentives or what you 
are seeing, how would you suggest that we renew our interest in 
vocational training and apprenticeship programs? What can we do 
from Congress to make sure that we have a workforce? What would 
you suggest, please? Any of you?
    Mr. Anderberg. I think, for example, in Rockford, I think 
every district or every area that has manufacturing recognizes 
that shutting down the vo-tech schools was a big mistake. In 
Rockford alone, we have had one high school, Jefferson High 
School, start up their vo-tech training programs; it has been 
over 5 years ago now. And it has been very successful. There is 
another high school in Rockford that is starting their vo-tech 
program again. Across the border in Beloit, Wisconsin, in 
fact----
    Mr. McKinley. We have to overcome a stigma.
    Mr. Anderberg. Right.
    Mr. McKinley. Someplace back in the seventies or eighties, 
there was a stigma about, well, they are in a shop; they are 
autobodies. How do we get that back and remove that stigma with 
that?
    Mr. Anderberg. I think we have to show that, if you are 
going--I went to college and I have a master's degree--but I 
think you have to show, if you go to a 4-year school and you 
come out with a bachelor's degree, you are in debt, and that 
the wages you are going to make aren't as much as somebody that 
comes out of high school with math and an aptitude and goes to 
work in a manufacturing operation, the amount of money they are 
going to make.
    The wages that we have in our manufacturing companies today 
just in Rockford are tremendous. And then, because of the 
scarcity, they have risen, and it is an attractive wage and it 
is more than a living wage. The people that work in 
manufacturing make more than the majority of the middle-class, 
working individuals.
    I can't put it all on manufacturing. You can point fingers 
at everybody. We have to do a better job of marketing and 
educating the public of what manufacturing is today. I don't 
know how; maybe that is something Congress can step in and do.
    Mr. McKinley. I am sensitive to it because my first job was 
in manufacturing. I was on an assembly line in an ice plant, in 
a neighborhood ice plant. So, I understand that we worked seven 
days a week.
    But, nevertheless, I appreciate your effort with it. I am 
sorry that some people got distracted in trying to make this an 
issue over the tax cut program. But, you see, there is a reason 
they are doing that, and I am sorry.
    And I yield back.
    Mr. Latta. Thank you very much. The gentleman yields back.
    And the Chair now recognizes the gentleman from Kentucky 
for 5 minutes.
    Mr. Guthrie. Thank you very much. It is nice to be here. 
Sorry, there are a couple of other hearings going on, so I have 
been in and out. I apologize.
    But this first question is for Mr. Anderberg and Ms. 
Moyers. As nearly everyone has mentioned this morning, the 
workforce challenges you are facing are significant. This issue 
is important to all of us and our districts.
    Mr. Anderberg, one issue, in particular, you mentioned was 
the need for increasing apprenticeship opportunities. And some 
may not be focused on that. I recently started the 
Congressional Apprenticeship Caucus with my colleague, Susan 
Davis of California, and we introduced legislation to expand 
awareness of apprenticeship opportunities by providing funds 
for the states and the Department of Labor to get the word out 
about opportunities.
    There are a lot of challenges, but could you tell us what 
are some of the biggest challenges that are specific to your 
apprenticeships or earn-and-learn opportunities?
    Mr. Anderberg. I think for us, and what we have 
experienced, what I know my fellow colleagues back in Rockford 
have experienced, it is simply finding a young individual that 
wants to come to work every day, wants to do the work. And in 
our instance, when we have someone come to the door that is 
interested in a manufacturing job, what we do is we put them 
into our apprenticeship program. And if they exhibit good 
attendance, an aptitude, they are a good worker, if we ask 
them, ``Do you want to become a machinist? Do you want to make 
a career here?'' If they say yes, we pay for their 
apprenticeship 100 percent. We pay for all their books, all 
their costs.
    And even if they are on a night shift, for instance, while 
they are at school, because there is some night school and 
night classes, we pay their wage while they are at school. I 
don't want to penalize them. So, we bend over backwards to get 
somebody into our apprenticeship program. The problem is 
finding individuals to come in that want to do it. That is the 
biggest problem.
    Mr. Guthrie. Ms. Moyers, do you have any followup?
    Ms. Moyers. Yes. We actually at Jerl also offer an 
apprenticeship through the State of Ohio. We have not completed 
an apprentice since 2014. We have had a lot of people enrolled. 
We have put people through programs. And like Mr. Anderberg has 
said, the young people are either not focused enough to want to 
continue it--it is a 4-year program with us. And after a year, 
they drop off, they start missing classes, failing classes.
    The other issue, I think, that is hindering people from 
offering apprenticeship programs is no one wants to train an 
employee that another company is going to poach. So, because 
the workforce, we have this skilled wage gap, it is really hard 
to commit to putting the investment into those employees if you 
are fearful they are going to jump ship and go somewhere else, 
because, then, you have no return on your investment.
    Mr. Guthrie. Right.
    Ms. Moyers. I don't know what the solution is to that, 
unfortunately.
    Mr. Guthrie. Well, thanks. And, we are looking at other 
things and other bills and other issues about getting people 
into the workforce, and so forth. My argument is that these 
people are wanted, they are needed, and what you just said, 
wanted. In particular the farm bill we are debating that. And I 
really believe this. If somebody is on some kind of benefit and 
they don't get back into the workforce, then 5 years from now 
they are going to be in the exact same spot.
    But what you just described is what my experience is. I am 
from a manufacturing background. If somebody will come to work 
and show up every day and do their job, they are going to move 
up and improve. And I will tell you the difference. If somebody 
doesn't get back into the workforce, they are going to be in 
the exact same shape 5 years from now. If they just show up for 
work with even low skills or no skills, they are going to be 
where you are talking about 5 years from now through an 
apprenticeship or some kind of program, and be better off.
    But I want to get to one other thing. I am changing the 
subject. So, Mr. Anderberg, this is for you. My colleague Doris 
Matsui and I are looking to drop a bill to direct the 
Department of Commerce to establish a working group of Federal 
and private stakeholders to define blockchain. That is one 
thing, until we can even deal with policy, get the definition 
of blockchain and study some of the implications for spectrum 
policy in potential applications. We have a lot to learn and 
hope this is a good first step in kicking off significant 
conversations across the Federal Government.
    Do you believe innovations in blockchain could be important 
to your company and the manufacturing sector generally?
    Mr. Anderberg. Yes. I think anytime Washington wants to 
talk about manufacturing, it is a benefit. I remember coming 
out here in the late '90s when it was discussed talking about 
PNTR and some of the trade agreements. And I came out in small 
manufacturing groups. They didn't want to hear us. They didn't 
want to hear what we had to say of what was going to happen. 
And I think the reality has become reality.
    Anytime Washington has talked about manufacturing, I think 
that is important. And we have talked here on the panel before 
we started. You know, the is the Digital Commerce and Consumer 
Protection Subcommittee. Yet, we have a USDA. I am not opining 
for another bureaucracy. But how important manufacturing is to 
our national defense, our economy. Shouldn't there be some type 
of subcommittee or committee on manufacturing to keep watch on 
some of these things? Maybe that is something. But I fully 
appreciate anytime Washington wants to discuss, to talk about 
manufacturing, because it is extremely important to our 
country.
    Mr. Guthrie. Thank you. I appreciate that.
    My time is expired and I yield back.
    Mr. Latta. Thank you very much. The gentleman's time has 
expired and he yields back.
    And the Chair now recognizes the gentleman from California 
for 5 minutes.
    Mr. Cardenas. Thank you very much.
    I appreciate the opportunity to talk to some of the 
practitioners out there in the real world. So, thank you very 
much for being here.
    Ms. Moyers, thank you for pointing out in your opening 
statement about the lack of diversity, even in your own 
company. And it is good to hear that it sounds like you would 
love to welcome more diversity.
    Is diversity good for business, for your business, for your 
bottom line?
    Ms. Moyers. Absolutely. It is good for every business. I 
can't tell you how many times just myself, as a family member, 
completely accepted in my business, walking in and I can 
present an idea that I can tell no one at the table has thought 
of before. And I don't know if it is because I am a woman. I 
don't know if it is because I didn't stay in my industry; I 
didn't start there. I have previous experience in other 
industries.
    But any time you get someone who is different, they offer a 
unique perspective. If they have grown up in a different place, 
if they have experienced different prejudices, experienced 
different benefits from their race, their religion, their 
sexual orientation, their gender, it is important because we 
cannot continue--we have talked about manufacturing as needing 
to be innovative and needing to progress, and we can't progress 
if we have the same people making the decisions and deciding 
to--excuse me; I lost my train of thought--making the same 
decisions.
    Mr. Cardenas. Well, Ms. Moyers, you just mentioned 
something very interesting. That is, you mentioned a whole 
breadth of different communities. Your product, is it 
consumed--or who participates in that product? Is it across the 
board or it is only one kind of community?
    Ms. Moyers. No, we have a----
    Mr. Cardenas. The ones that you just described?
    Ms. Moyers. Our business is metalworking. Basically, we are 
not an end product. We provide for other companies that produce 
other things.
    Mr. Cardenas. So, all communities that you just described 
benefit from your product in some way or another?
    Ms. Moyers. Absolutely. Absolutely. We work in multiple 
industries, food packaging, automotive, elevator, energy. It is 
nationwide.
    Mr. Cardenas. There is another form of diversity----
    Ms. Moyers. Right.
    Mr. Cardenas [continuing]. Diversity of consumers, right?
    Ms. Moyers. Yes.
    Mr. Cardenas. OK. In some of the testimony, some of you 
were talking about how young folks, it is hard to attract them 
and get them involved in manufacturing, or what have you. My 
office, my district office, we participate in manufacturing 
day. We really make it a manufacturing week.
    And one of the things that I came up with, and we are still 
trying to tackle this issue--I happen to represent part of Los 
Angeles. So, it is not uncommon to see an A-list star walking 
down the street or somewhere in town, and you are like, whoa, 
that is so-and-so. On that point, I think it is important for 
everybody, whether it is you, the practitioners, us as 
policymakers, or what have you, we have got to try to get 
really cool spokespeople to encourage that manufacturing is 
cool.
    Another thing as well that I think is important, I think 
that, on balance, manufacturing actually pays more on quasi-
entry-level skill set jobs than does other quasi-entry-level, 
not-so-much-skill required jobs, like, say, working at a fast 
food restaurant, or what have you, where many of our young 
people end up, if they are determined to actually work, and 
say, well, that is the only thing I have got. So, I have got to 
put on this funny, little hat and I have got to punch that cash 
register.
    I think it is really important that your industry pay 
attention to that. I think that you have a higher likelihood of 
attracting a young person who already went out in the workforce 
and got tired of working for minimum wage and tired working for 
a job that requires almost no skills other than showing up for 
work. I think that you have a higher likelihood that they will 
actually be more attracted to trying to apply themselves for 
one of your businesses and in manufacturing in general. That is 
my take.
    Since I was 13, I had one, two, three jobs at a time, or 
what have you. That was my immigrant parent inculcation into my 
life. So, I think I was a little lucky. So, by the time I got 
out of high school, I was like it is just natural; I have one, 
two, or three jobs at any given time. Today's younger folk, 
they don't seem to have that kind of want for that kind of 
effort.
    So, I am just saying that I think that it is important, 
especially for you practitioners, to just pay attention to what 
is going on out there in the community. And instead of, 
unfortunately, seeing them be not attracted for you, maybe 
after they have already been in the workforce and realize that 
you do have a better paying, better opportunity, career type of 
opportunity for them, then maybe you will have a little bit 
more stick to it from some of these younger folk.
    I am looking at the clock; I am running out of time--but 
one thing I definitely want to ask Mr. Stettner is, how can 
manufacturers better attract and retain their next generations 
of diverse employees and leaders?
    Mr. Stettner. One thing I would say in interviewing 
workforce practitioners who place people in manufacturing, many 
of the programs only focus on getting the person the first day 
of the job. They need more resources to help with concrete 
things like child care and transportation, but also just 
mentoring and coaching, especially if you have a first Latino 
kid or the first Black kid going into an all-white workforce.
    And it is also an educational piece on the manufacturers to 
learn how are we going to make that person comfortable, how are 
things people are saying on the floor making that person 
uncomfortable, how do we change our culture to be more 
welcoming to women and people of color? And what I have seen is 
manufacturers are listening and they are working, and look at 
those programs as a way to learn how to do that a little bit 
better.
    Mr. Cardenas. Thank you. I yield back.
    Mr. Latta. Thank you very much. The gentleman's time has 
expired.
    And the Chair now recognizes the gentleman from 
Pennsylvania for 5 minutes.
    Mr. Costello. Thank you, Mr. Chair.
    I would like to point to an example in my home district, in 
Berks County, in fact, that highlights the success resulting 
from many of the pro-growth policies such as the tax cuts and 
JOBS Act. Carpenter Technologies, founded in Redding in 1889, 
employing 2,000 people at its Berks County facility, produces 
special alloy-based materials for aerospace, energy, 
transportation, defense, and consumer electronics markets. 
Carpenter Technologies recently announced a $100 million 
investment in its mill in Redding because of the tax savings 
they recently have found themselves having as a result of the 
tax bill.
    Capital investment is a strong signal of entrepreneurs' 
confidence about the future. We need to focus on marrying those 
free-market policies with workforce development, training to 
help minimize the skills gap through apprenticeships, on-the-
job training for job seekers, and emphasizing curriculum in 
schools that can be translated to the 21st century economy.
    Can all of you talk about some of the training options your 
potential employees need to be certified and if there are any 
barriers for them to receive the proper training? The second 
question, how can the Federal Government be a better partner in 
fostering more workforce development opportunities to get folks 
off the sidelines and into good-paying jobs in the 
manufacturing sector?
    Ms. Moyers. I think that, with my company specifically, we 
are offering quite a bit. We offer tuition assistance for 
anyone that is continuing education. Our apprenticeship is 
fully paid. And basically, if you are willing to come to work 
and work hard, we will invest in you and we will make sure that 
you move up. Just like it has already been said, if you can 
find someone who is unskilled who will show up to work every 
day, we are going to train you and we are going to move you up 
in our fields.
    I am sorry, what was the second part?
    Mr. Costello. Federal Government partnering.
    Ms. Moyers. Yes.
    Mr. Costello. How do they? How might they do it better?
    Ms. Moyers. I think we have already covered it a little 
bit.
    Mr. Costello. I think so, but----
    Ms. Moyers. I think education funding into vocational 
schools and trade skills and life skills is vital. I think that 
is the way that the government can help us.
    Mr. Costello. That second part, maybe add where you may be 
working with your local or regional workforce development 
organization and how the Federal Government's role is or is not 
involved in that, for the next folks. And we can go back to it 
in a second.
    Mr. Paradowski. I think the role of government, the K-12 
space, we put too much incentive on SAT scores and truancy. I 
have got four daughters, three in college, one in high school. 
The mindset is, if you do well on the ACT, there is the center 
lane that, if you are in it, you are a winner and everything 
else is kind of a fallback. So, if you find yourself in a 
skilled trade, it is because you couldn't make it on the main 
lane. I think that is a challenge where it creates the stigma.
    I think the things that will help is the awareness of what 
is out there. I said it earlier; nobody aspires to be that 
which they don't know exists. So, data in the K-12 space, here 
are the opportunities that lay out there in the workforce. And 
they are all equal valued. So that kids aren't conditioned to 
think I have got to go to a 4-year school and take on that 
debt, just to find out that what I got trained in isn't 
something that either (a) has any market demand or (b) is 
anything I enjoy doing.
    Getting people off the sidelines is a tricky thing. I have 
some data. It is a little bit dated. In the State of 
Wisconsin--this was late last year actually--are unemployment 
rate at the time was a little bit over 3 percent, which equated 
to 109,000 people. Right now, the unemployment rate is below 3 
percent. At that same point in time--and as everybody would 
know, unemployment is those out of work looking for work--at 
that same point in time, there was 1.4 million people in the 
state of Wisconsin that were out of work not looking for work. 
Some of those, in all fairness, might be people who don't need 
to work. But I think it would be naive for us to think that 
that is all of them.
    There are a lot of people who are able-bodied that could be 
additive to the workforce that aren't. Some of that might be a 
fact that the K-12 system. Current gradation rate of Milwaukee 
public schools is about 60 percent. So, four out of ten kids, 
where are they going? I am a graduate of Milwaukee public 
schools.
    So, those things concern me deeply because, if they are not 
going into the workforce, how do we get them into the 
workforce? Maybe if there are more pathways equal valued, that 
a 4-year degree is great; trade is great; military is great. 
They are all equally great. Maybe less people opt out at an 
early age. There is, obviously, a lot of other complicated 
parts with opioid addictions and things of that nature. But 
that is our opportunity to me, the people that are on the 
sidelines. We have got to find a way to keep them in the game, 
keep them on a pathway to be added up to the economy.
    Mr. Stettner. There is obviously formula funding for career 
technical programs, but they kind of fund the same programs 
year after year. In the same way some of the programs like the 
TAACCCT grants incentivize some really innovative activities 
that led to the current boom in apprenticeship, I think we need 
a focused program that would spur school districts to do 
something innovative about the trades, not a big program, but 
something, a competitive grant program that really got the 
juices going and kind of show the Nation we can do more.
    Mr. Anderberg. As far as barriers to training, again, I 
think it has to do with an educational effort of the educators, 
the parents, the students, and, obviously, opening the vo-tech 
schools, which we are seeing in Rockford. In one instance, I 
have talked to the program administrator in Rockford, and they 
are looking at, for juniors and seniors that are going through 
the program. This used to happen years ago, where you have a 
half-day at a workplace and half-day in class. And so, then, 
when they are ready to graduate from high school, they are in. 
And then, from there on, there could be training.
    As far as what can the Federal Government do, I guess maybe 
helping create awareness. I don't want to repeat what they 
said, but it is just helping the community colleges. If there 
are vo-tech programs--I will step back. Years ago, I was told 
that part of the problem with Congress is, of the 435 
districts, only 35 districts have manufacturing in them of any 
significance. I think that has been an issue over the years. 
That is why things have fallen through.
    So, the recognition here today, having us here today and 
talking about this is a start, but I think there has to be more 
awareness. If funding for some of the tech schools or for some 
of the community colleges, like we have in Rockford, could 
help, that would be terrific.
    Mr. Costello. Thank you all very much. I yield back.
    Mr. Latta. Thank you very much. The gentleman's time has 
expired.
    And the Chair recognizes the gentleman from Florida for 5 
minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it.
    For Mr. Anderberg, Mr. Paradowski, and Ms. Moyers, I heard 
from my local manufacturers, the stakeholders in Tampa and the 
Tampa Bay area, that workforce development is one of the 
biggest problems in this sector. I know many of my colleagues 
have already highlighted this. And we have the vocational 
training, the schools there. We have career academies, which I 
worked on in the legislature. So, in other words, if there's an 
area of need in the community, we focus on that particular area 
of need through the career academies and the high schools. And, 
of course, we have AMSKILLS. We have P-TECH, and we have 
Marchman, and all the community colleges. They do an 
outstanding job, but we need more. This is everywhere I go I 
hear this.
    But can you tell me about some of the other impediments, 
because we did cover this, to growth in the manufacturing 
sector? So, this is for Mr. Anderberg; you can go first, 
please.
    Mr. Anderberg. You said impediments to growth in the 
manufacturing sector?
     Mr. Bilirakis. Yes, yes. Well, besides the workforce.
    Mr. Anderberg. Well, that is our biggest impediment at the 
moment.
    Mr. Bilirakis. Yes.
    Mr. Anderberg. But I think right now it is tough to say 
there are impediments because of what is taking place the last 
year and a half, quite frankly, the change in tax policy, the 
change in regulatory, the trade situation. We are going full 
blast right now, and I don't see where there is an impediment 
for manufacturing now solely, except for the lack of people.
    Mr. Bilirakis. Good. So, you recommend we focus on the 
workforce issue?
    Mr. Anderberg. I think the workforce is probably the most 
important thing that Congress could work on to help us. Again, 
allowing us to keep our capital, the money we earn--I don't 
wake up in the morning and think how I am going to spend my 
money on a boat or something else. I think about how I am going 
to improve my operation, what I am going to do to help my 
people, grow my business. That is what we do with our money.
    And I just want to thank you, thank Congress and this 
administration for allowing that to happen. Everyone is 
investing again. It is incredible.
    Mr. Bilirakis. Very good.
    Mr. Paradowski, any more besides the workforce issue? Any 
other impediments?
    Mr. Paradowski. Absolutely. I often give my four legs of 
the stool that drive private sector growth speech. So, maybe I 
will inject it right now. Logistics, energy, workforce, 
although I wasn't supposed to say that word, and commerce-
friendly government. So, it is really the economic, how 
friendly an environment as far as the government.
    So, I will use a real-life, real-time example, Foxconn 
making its investment in the southeastern part of Wisconsin. 
Their focal points were those three things: logistics, being in 
proximity to Milwaukee and Chicago, two international airports; 
energy; workforce is certainly a thing, but the economic 
environment that the government created in the State of 
Wisconsin specifically for them to come there and compete.
    Really, the argument, or maybe the fundamental difference 
in a lot of the folks in this room is, the sun rises in the 
East and free markets do what they do. If you can't compete--I 
will cite something that Mr. Stettner said--highest tech, not 
the lowest cost. Maybe there are some markets where you can be 
that, but I know that if I wanted to go into the 4K LED TV 
market, if I can't find a way to make one for $350 for a 50-
inch, I don't have a product. Markets do what markets do.
    And as a global economy and the U.S. role in that, we have 
to compete on a cost and performance basis or else we go out of 
business. Companies go out of business every day. And those are 
the four key things.
    The impact of tax reform is a real impact. Look at GDP 
growth. Anybody who says that tax reform didn't have an impact 
is denying a key factor of GDP growth.
    But one of the things that is a parachute on the car right 
now is certainly workforce, but you asked me not to talk about 
that. The regulatory environment, government needs to be an 
allied partner. If government is really focused on helping the 
private sector, changing the educational system in K-12, so 
that many pathways are equally valued, that will go a long way. 
I don't want to go down this rabbit hole, but legalized 
immigration I think is a big piece. Half of our workforce is in 
the last trimester of their career, between 50 and 65. And we 
need to add bodies. GDP is a function of output and efficiency, 
GDP growth, and we need to add workforce. We need to add 
efficiency.
    Mr. Bilirakis. Very good.
    Ms. Moyers?
    Ms. Moyers. I think I am going to sound like a broken 
record, but I think that the bottom line is just that the 
workforce is our biggest issue. Of course, personally, in our 
company we have had cash flow issues in the past. We are not 
having them right now because of the current climate, because 
of the tax reform, because of deregulation. And I think more of 
that is going to be helpful.
    I guess the only thing that I can think of is making it 
cheaper for businesses to run and do the things they do, so 
anything that is cost saving to us. One of the biggest expenses 
we have had in the past few years has been healthcare costs. We 
cover healthcare for our employees. They pay a very small 
percentage, and we don't want to make them pay more. And we 
have no intention of taking it away, no matter what it costs 
us, because we feel it is very value-added to our employees and 
it is part of the reason they stay with us. So, that is one of 
the things, that that rising cost is a big burden for small 
business owners.
    Mr. Bilirakis. All right. Thank you.
    I have a couple more questions, but I will yield back. But 
thank you very much for that information. Thank you.
    Mr. Latta. Thank you very much. The gentleman yields back.
    And looking down the dias here, there are no other members 
wishing to ask questions.
    First of all, I want to thank all of the witnesses for 
being with us today, for giving your testimony, taking your 
time away from your businesses to be with us. And it is great 
to know that it is not just an issue in northwest Ohio or Ohio; 
that the No. 1 issue out there is employees. And all the work 
that you all are trying to do, from benefits to making sure 
that you are investing in people out there for 2 to 3 months to 
get them out there. So, I really appreciate you all being here.
    Before we do conclude, I want to make sure that the 
following documents are submitted for the record by unanimous 
consent: the report by Mr. Stettner; also, the earlier document 
that the gentlelady from Illinois submitted that was accepted.
    [The information appears at the conclusion of the hearing.]
    Mr. Latta. And pursuant to committee rules, I remind 
members that they have 10 business days to submit additional 
questions for the record. And I ask that witnesses submit those 
responses within 10 business days from the receipt of the 
questions.
    And so, without objection----
    Ms. Schakowsky. Mr. Chairman, if I could say just 
something?
    Mr. Latta. Oh, the gentlelady.
    Ms. Schakowsky. So, Mr. Stettner, in your written statement 
you talked about apprenticeship and vocational training and how 
that has dwindled a bit. But you also said--and I think this 
came up--that there is a generation who experienced industrial 
decline, who are telling their children to shun factory work. 
And I agree that, in part, it is a marketing approach to young 
people.
    Mr. Paradowski, you talked about careers, that these really 
are careers. And I also think that we need to encourage women 
to understand that this is a great opportunity for women to 
participate and get more money; that more diversity in every 
way is important. And so, I think that we need to help with the 
marketing.
    And maybe, Mr. Stettner, this is part of a manufacturing 
strategy, that the Federal Government, along with the private 
sector, can participate in, to make sure. I think some people 
of a generation ago think about dirty factory floors and kind 
of nasty work, and we have to help change that image, so people 
see this as a lifelong career choice.
    So, I just wanted to add that.
    Mr. Latta. And again, as we have been hearing from all the 
members here on the committee and from our witnesses, 
manufacturing has changed out there. And I know that I was in a 
plant not too long ago and asked a gentleman running a CNC 
machine how long it took him to learn it. He said, ``I'm still 
learning it.'' He had been there a year. A lot of folks don't 
realize how much computerization is in plants today, and it is. 
It is looking at everything from guidance counselors to 
principals----
    Ms. Schakowsky. Right.
    Mr. Latta [coninuing]. To making sure that economic 
development directors, going right down the entire line, right 
down to the student, getting them out there to see what is 
there and making that investment.
    So, again, we really appreciate you all being here today 
because this is really important to this economy. It is vital 
to this nation. So, we appreciate you being here today, and 
thank you for your testimony.
    And with that, this subcommittee will stand adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
